                                           UNITED STATES OF AMERICA
                               FEDERAL LABOR RELATIONS AUTHORITY
                                 OFFICE OF THE INSPECTOR GENERAL
                                             WASHINGTON, D.C. 20424-0001




Date Issued: October 13, 2009

SUBJECT: Internal Review of Federal Labor Relations Authority Case Intake and
Publication (CIP)

METHODOLOGY:

This Federal Labor Relations Authority Inspector General Internal Review of CIP was
conducted in accordance with the Inspector General Reform Act of 2008, the Inspector
General Act of 1978, as amended, and in compliance with the Counsel of the Inspector
General of Integrity and Efficiency and the Federal Labor Relations Authority Inspector
General’s updated (2009) related policies.

BACKGROUND:

The Case Intake and Publication (CIP) (which was formally called the Case Control Office)
is part of the FLRA Authority and has the mission to receive, manage and process cases
for the Members of the Authority and has similar mission parallels as a clerk of the court.
The CIP is the first FLRA office to receive Authority cases and is the last FLRA office to
process and dispose FLRA Authority cases. The Chief, CIP conducts many duties that
mirror a legal clerk for the FLRA Authority. The Office of General Counsel and Federal
Service Impasse Panel (FSIP) have their own systems for case intake. The 4 major cases
that are handled by the CIP include representation, arbitration, negotiability and unfair labor
practice charge appeals.

The CIP receives cases (usually delivered by personal DILERY or by U.S. mail), reviews
the cases received for applicability and time factors, asserts or denies jurisdiction and
decides what procedures to use. If issues are controversial or significant or lack precedent,
CIP contacts will obtain input from the Members. Cases are assigned on a rotating basis to
Members of the Authority to ensure an evenly distributed workload. Once a Member has
rendered a decision, the case is returned to the CIP for out processing and filing. The CIP
handles publications for all FLRA components.

The CIP is the point of contact with customers, as well as public or private sector walk-ins
who wish to review cases. The CIP maintains the requisite information, meets the
applicable filing timelines and makes sure the cases are procedurally correct.
FACTS:

The CIP is handled by the Chief CIP Officer and his office contains 5 staff positions. The
staff consists of 3 Labor Relations Specialists, 1 Legal Technician and 1 Legal Clerk. One
Labor Relations Specialist also currently handles the FLRA Library’s duties. All of these
employees are experienced and training opportunities to increase their job growth is
approved on a regular basis. The Legal Clerk’s position of a GS-6 is the lowest paid staff
member in the FLRA and the Chief, CIP, with the approval of his Supervisor has requested
this GS-6 position qualifies for the GS-7 level.

The FLRA Legal Technician handles publications cases but primarily focuses on handling
the Authority webmaster because no one else in the FLRA can do this. Much of her other
assigned tasks were not able to be addressed because of her extensive amount of work on
the website. Once the website is transferred to the Information Resource Technology
Office, this website function will no longer be handled by the CIP.

Once a case is assigned to the FLRA Member’s Office and their case writer, the Members
Office take complete control of the case. If a case is to be dismissed by a Member’s
Office, all Members must vote on the dismissal. If the case is dismissed by the CIP before it
is assigned to the Member’s Office, the Chief, CIP dismisses it.

All of the CIP staff employees handle case processing and one employee, the Legal
Technician enters and maintains the cases on the internet. This additional internet
requirement has never been provided to any other FLRA employee. When the CIP
individual who maintains the internet and performs other duties related to publishing and
posting decisions on the internet became sick and was out of the office for over 3 months,
the FLRA had to hire contractors to do this job for two months because it did affect the
Authority in handling its cases. After 4 months, management approved this individual’s
request to work from home while she was still recovering.
She is currently still doing this from home.

The specific CIP cases handled by the office staff include case exceptions to arbitrations,
appeal representation cases, petitions for reviews, complaints on unfair labor practice
charge case decisions by FLRA Judges, miscellaneous cases, and foreign service cases.
FLRA Federal Impasse Panel cases are rarely handled by CIP. During FY 2009, the
amount of cases assigned to the CIP was reduced and was around 30 and all cases were
handled properly and on time. The only problem CIP had this year was related to meeting
all of its office’s production goals. It met about 75% and should have handled all of it.

When cases are filed with the Authority component, the CIP examines the filing for
deficiencies and jurisdiction issues such as timelines and the nature of decision. If the filing
contains procedural deficiencies, the CIP issues a deficiency order and requires the
correction of the deficiency. If the deficiency is not corrected by the filing party, the CIP
then issues a show cause order and seeks an explanation for why the case should not be
dismissed. If the explanation is not sufficient, the Chief, CIP has the authority to dismiss

                                               2
the case. The Chief, CIP also has the authority to dismiss cases based on jurisdictional
defects. If a response to an initial filing from parties is untimely, the CIP provides a
memorandum to the Member’s offices and makes them aware of the problem and makes a
recommendation on whether to or not consider the untimely response.

When the CIP handles and resolves all issues in a case filed, the Chief CIP assigns the
case to an FLRA Member sequentially. This assignment method has been accepted by the
Members. Under the current administration, the FLRA Members Office staffs have been
increased which was necessary because the handling of these cases takes a lot of time.
All three of the Authority’s Member Offices act independently but interact properly with the
CIP. The Member’s screening team contains representatives from each of the Member’s
offices. These individuals review the case file to determine if the case meets requirements
and whether the case can be assigned for a full review. They also make sure that all
deficiency and jurisdictional issues were handled properly by the CIP. Once the screening
team completes this, the CIP officially assigns the case to a Member’s office. This is
normally done sequentially.

If the CIP or Member’s office staff identifies a procedural problem, a deficiency order is
issued that requires the party to correct it. Filings are dismissed only if the party fails to
correct the problem in a timely manner and then only after the CIP issues an order to give
the party a chance to explain why they did not respond to the deficiency order on time.

The Member office staff who is assigned a case by CIP conducts cite checking and is this is
done by case writers. The final responsibility for cite checking is conducted by the CIP to
ensure that it is in proper Blue-book form and the case cited stands for the proposition for
which it is offered. The Members and their staffs as well as the CIP do not normally contact
the case filing parties, however because there were so many old cases from the last
administration, the CIP did check on these specific cases with the parties. Calls by
telephone are made for post petition conferences. Unless the case is a negotiability case,
no direct contact is normally provided by the Authority.

All FLRA Members stated that the CIP does a good job for them. Although during the last
administration, cases took longer to handle in CIP, now things have improved and the
review is fast and well done. The Members really don’t normally interact with CIP. Their
Chief Counsels and screening teams work with CIP. Now, with updated staffs, the
Authority is exceeding its 60 day target. The only problem the Authority has relating to CIP
is the current internet which is being addressed by the Information Resource Technology
Director. Hardware has to be purchased to create an electronic system so that case writers
could do their work on line.

The Chief of CIP was hired by the FLRA during the previous administration as the Deputy
General Counsel. He then worked for the Authority and Office of Solicitor and then was
transferred to the CIP 2 years ago. The Chief CIP position grade of GS-15 was diminished
by the former administration to a GS-14 which is lower then the type of work being done.
This position has not yet been updated by current management. The Chief, CIP currently

                                              3
supervises 5 CIP employees who function spontaneously and are a tenured staff. Dialogue
with the staff is continuous. The Chief, CIP reports to the Chairman’s Chief Counsel. The
current Chief, CIP sometimes receives critical remarks from his supervisor but mostly
receives support for his requests and interactions.

The Chief, CIP reviews all filed cases received by his offices and works collaboratively on
most cases. The Chief, CIP performs the first review for sufficiency and then prepares and
sends out the acknowledgement notice letter to the filing parties. Then, the file goes to one
of his staff for further review on procedural defects and to ensure that the filing meets
jurisdictional requirements. All deficiencies identified are reviewed and signed by the Chief
CIP. On difficult cases, the CIP Senior Labor Relations Specialist will provide an additional
review of the case. Dismissals are usually prepared either by the Chief, CIP or CIP Senior
Labor Relations Specialist. In addition, they focus on issuing the decisions on the date they
were approved.

The Chief, CIP interacts daily with his employees professionally. The Chief, CIP serves as
the point of contact for all Members of the Authority and is responsible for providing
procedural reviews, assigning cases to Members (usually on a rotational basis) and
administratively closing cases after the Authority renders a decisions. The Chief, CIP has
the authority to grant or deny the requests of parties including requests to extend the time
or withdraw cases pending before the Authority. The Chief, CIP has the authority and can
dismiss cases that are untimely, premature, incorrect or have deficient files. The Chief, CIP
may dismiss untimely, incorrect, or administratively deficient files and adopt Administrative
Law Judge conclusions related to unfair labor practice charge cases in which exemptions
are not filed. The CIP also serves as the FLRA’s point of contact for Federal Register
Notices. CIP employees who communicate with case filers do not get into any discussion
of case material or the status of the case. Their communication relates only to
administrative procedures.

The Chief, CIP and his staff review every Authority Members decision before issuance.
When there is a need to bring case issues to the Member’s staff about an individual
decision, the Chief, CIP does so. If the CIP staff finds typo or written mistakes in the
Authority Member’s decisions, they will correct the mistake and ultimately provide copies of
the final decisions to the Members. Currently, the CIP creates 36 copies of each decision.
1 copy is given to each party and the arbitrator if it is an arbitration case. 2 copies are
provided to the Office of General Counsel and l copy is provided to FSIP (even if not
involved in the case) as well as each case writer in the Authority. Copies are also provided
to each case writers in the Members” offices and for each of the Members. One copy of
each file is maintained by the CIP. No specific distribution list is currently maintained by the
CIP. Once a case is closed and the decision is issued, the CIP maintains the case file for
two years. After 2 years, they provide the file to the National Records Center where they
can be retrieved if necessary.

During FY 2009, through the end of August, the CIP received 198 cases which averaged
about l8 cases per month. Representation cases are required to be reviewed within 60

                                               4
days of being filed and are generally assigned to the Member within 24 hours. Negotiation
cases undergo an entire post petition process which includes a post-petition conference,
CADRO related activities, and several filing opportunities by the parties. The CIP focuses
on setting up the post petition conference within 2 days of receiving the petition. After the
negotiability process is completed by CIP, the case is assigned to the Member’s staff for a
decision. It is normal for these cases to take 100 days to be completed and issued. For
arbitration and unfair labor practice charge cases, the CIP is required to wait up to 40 days
from the filing date to receive an opposition before handling the case. This is because once
the arbitration case is filed by a party, the other party has the right to file a response to the
FLRA within 30 days. Generally, the arbitration cases are reviewed when they have been
in CIP for over 45 days.

The CIP does not have any procedures for establishing pre-filing conferences although they
do respond to procedural questions asked by parties who want to file cases. The Federal
Register function that used to be handled by the CIP is now handled by the Office of the
Solicitor. Currently, all cases are processed in a proper and orderly manner. If there are
an extensive amount of cases that need to be handled at the end of the month, the CIP
staffers will spend additional work time (they do receive proper comp time for doing so) to
process the cases on time.

Currently, the amount and experience of the CIP staff is sufficient to handle the CIP
workload. However 3 of the 4 staff members are eligible to retire and no succession
planning has been created to help with future retirements. The Chief and CIP staff always
respond to extensive procedural questions from the Authority staff and occasionally receive
questions from the Authority Chief Counsels. Questions directly from the Members are
rarely provided to the CIP.

All official case files are provided by written orders. Sometimes, the CIP is asked questions
orally from a party to which they respond orally but this information is created by a memo
and added to the file. Substantive issues regarding the case are never discussed by the
CIP with a party.

CIP also has the job of preparing the table of authorities for filings made by the Office of
Solicitor before Federal Courts and Administrative Agencies like the Equal Employment
Opportunity Commission. For representation and unfair labor practice charges, the CIP
receives the Regional Directors decisions and orders immediately and case files are
normally received within 3-4 days from a CIP request. All Administrative Judge decision
documents are scanned and maintained in an electronic file and are accessible
immediately. The Chief, CIP does not handle Freedom of Information Act (FOIA requests)
for the Authority’s Members and rarely receives FOIA requests that pertain to CIP
documents.

The CIP utilizes the FLRA’s case tracking system on a daily basis. The technology is very
old and the reports that are available from case tracking are not always reliable. The CIP
has found that numbers can change from day to day when parameters are entered or when

                                               5
old cases are resolved and closed in the system. The only problem issue CIP has with
handling the software is related to the use of web related work and decision publication
because the website is very old. Currently, the Chief, CIP is working with the FLRA Chief
Information Officer and has taken over the website function. The CIP places decisions on
the website directly without input or help from the CIO.

All FLRA Members and their staff can access the same system as the CIP and enter data
that is appropriate and related to their Member Office case. Member’s Offices can enter
data regarding cases assigned to there office which the CIP and other Members can not.
Currently, the CIP decision publication functions handled by one employee who has been
sick and out from work since May, 2009. In June, 2009, the Chairman, FLRA hired two
contractors to prepare decisions for publication and enter cases on the website when the
employee got sick because no one else in the FLRA knew how (or was ever trained) to do
this same work.

The CIP maintains the Authority Member’s Office files in a file room which is locked if no
one is in the CIP office. No access can be made to these files without a CIP employee
present even though these files are not secure files. The only secure files maintained in the
CIP office are employees personnel- related files such as evaluations, performance plans,
leave slips and other personally related files. These files are maintained in a locked drawer
in the Chief, CIP’s office which is locked when he is not present.

The CIP does not have current instructions for handling filed cases although it does have a
number of written internal policies and procedures that are published in a notebook entitled
“CCO Standard Operating Policies and Procedures.“ Pen and ink” changes have been
made but the last time a major review was done on these policies was in November 2001.
Previous guidance, which was a manual created by the Case Processing Office, dated
back to approximately l989 has not been updated. Current employees still refer to this
manual which contains detailed policy if they need information. The Delegation of Authority
Plan was created in 2000 under the last administration. The current Chairman and new
Members need to review and update this plan. Also the CIP Directory can not be searched
for information by entering the requested information. If a CIP employee needs to look for
something in the Directory, they have to scroll it to find the information.

The Labor Relations Specialist, who focuses on handling initial case documents, hopes to
set it up and process the case within 24 hours. Representation appeal cases received are
handled immediately because they have to be issued within 60 days. All CIP case handlers
handle the case as quickly as possible. They immediately notify the Chief, CIP who then
notifies the Member’s Chief Counsel who will receive the case. The Labor Relations
Specialist who focuses on handling decisions tries to get them the same day they are
received from the Member handling it. The most time allowed for issuing decisions is 48
hours (not by law). Reviewing a 10-15 page decision normally takes one day but the time
element really pertains to the amount of pages of the decision.



                                             6
If a case filed with CIP is deficient, the Labor Relations Specialist will not issue it to the
Member and will create an order addressing the deficiency and send it to the parties as well
as the contacted Member’s Chief Counsel’s CIP. Case processing has improved time wise
with the rational handling of the cases by the three current Presidentially appointed
Authority Members and the issuance of the cases by CIP normally no longer focuses on the
last few days of the month like it used to be handled 10 years ago prior to the last
administration (when cases were diminished.) Overtime work is now minimal for the CIP
staff. One Labor Relations Specialists generally handles the final cases released by the
Authority Members but can get help from the other 2 Labor Relations Specialists if
necessary.

CIP is very customer conscious but, as previously stated, they do not contact the parties
who file cases other than acknowledging the receipt of the case or stating that the
submission requires additional documentation. The acknowledgement letter sent by the
Chief, CIP does not include the amount of time for case processing. Customer
understanding of case timelines would improve their expectations and eliminate a lot of
additional contacts. Inquires about the status of the case are normally referred to the CIP
Labor Relations Specialists or Legal Clerk to research, handle and call the customers.
Generally, negotiability cases take the longest amount of time to handle because there is
more procedural complexity in reviewing and handling these types of cases.
Representation cases have to be handled within 60 days. Arbitration and unfair labor
practice appealed cases are also mostly handled within 60 days.

The CIP receives the cases, verifies the receipt to the submitter and checks them for
propriety before they are transferred to the Members Offices or dismissed because they are
not appropriate. The Members Offices review and issue a decision for the filed case. The
assigned Member makes the final decision and forwards the case back to CIP and the
Label Relations Specialist performs a post decision citation and references quality check on
the Member’s final decision prior to issuing the decision via a Memorandum by the Chief
CIP to the parties and then closes the case.

In FY 2009 from October to August 31, 2009, 144 Arbitration Cases, 37 Negotiation Cases,
16 Representation Cases, and 1 Unfair Labor Practice Charge (ULP) were filed with the
FLRA CIP for handling and were opened. 155 Arbitration Cases, 13 Negotiation Cases, 14
Representation cases, 13 ULPs were closed (some carry overs from the previous year).

As of August 31, 2009, all Representation cases filed with the FLRA were assigned by CIP
to an Authority Member staff within 2 days or were otherwise disposed. CIP met its target
of 100%. Upon the completion of filing requirements, 69% (75% target) Arbitration cases
were assigned to the Authority Member’s staff within 5 days or otherwise disposed. 50%
(75% target) of CIP Negotiability cases received were also assigned to the Authority
Member staff within 5 working days or otherwise disposed. All ULP cases filed with CIP
were assigned to the Authority Member staff within 5 working days or otherwise disposed.
100% of these cases were issued to the Authority on time by CIP.


                                              7
The total allocation for the 2009 CIP budget was $593. 60. As of September l9, 2009, no
CIP 2010 budget had not yet been approved by FLRA management. The majority of these
funds were spent in FY 2009.

CONCLUSION:

The Chief, CIP and his entire staff interacted with the FLRA Inspector General
extraordinarily well and provided the Inspector General extensive information regarding the
CIP and its interaction with the Authority and additional components to handle cases filed
with the Authority.

The functions conducted by CIP in support of the Authority and FLRA mission are done
properly. The Chief of CIP has established a trustful and respectful relationship with his
staff and interacts with the CIP employees on a daily basis. All members of the CIP staff
are very experienced, knowledgeable and motivated to do an excellent job. The current
staffing of CIP appears sufficient to support the Authority. The fact that one of the Legal
Clerks was sick and home during this review did affect the CIP because the individual was
the only FLRA employee who entered the Authority cases on the internet. The FLRA did
hire contractors to do this CIP telework job for 2 months.

The Chief, CIP and his staff are conducting their jobs properly and on time. The CIP staff is
sufficient and experienced to conduct the job. The only problems relate to old policies and
procedures which need to be updated, the need for succession planning for 3 CIP
employees who are eligible to retire and the fact that the letters to the parties who file cases
do not contain an estimate of the time required to handle the case. Otherwise, this internal
review did not find any other problems. The CIP is
doing an excellent job for the FLRA.

FINDING 1:

CIP policy and procedures need to be updated and a current instruction/manual should be
created.

RECOMMENDATION 1:

Chief, CIP should review and update CIP administrative policy and internal procedures to
reflect current processes. The 2000 Delegation of Authority Plan and initial manual for
handling cases should be reviewed and updated by the FLRA Members. An instruction
regarding handling of CIP cases should be created by the Chief, CIP and should
incorporate security measures as well as guidance on communication with parties filing
cases with the CIP for the Authority to handle. If case decisions cannot be made within the
stated timeline, an interim letter stating the anticipated increase of time should show that
the FLRA is sensitive to the customer’s need of information on the status of their case.



                                               8
FINDING 2:

The current Chief CIP position was diminished from a GS-15 to a GS-14 by the former
administration’s Chairman, FLRA even though the extent of work increased (library,
publications and website responsibilities.)

RECOMMENDATION 2:

The Chief, CIP position should be reinstated to a GS-15 position by management since the
Chief, CIP is conducting work requirements that meet the GS-15 level.

FINDING 3:

Three of the five CIP experienced staff members are eligible to retire and no succession
planning has yet been created to help with future retirements.

RECOMMENDATION 3:

The FLRA Human Resource Division should prepare succession planning for the 3
experienced CIP staff members who are eligible for retirement so that their positions can be
filled immediately when they retire.

FINDING 4:

When CIP employees access the CIP Directory, because it is old, the employees must
scan it to get specific information.

RECOMMENDATION 4:

The CIP Directory should be updated so that specific information can be required without
having to scan the entire Directory.




                                             9
